CERTIFICATE OF WORD COUNT
NO. TBD
Steve Cooley et al.,
Petitioner(s),
v.
National Abortion Federation,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the STEVE COOLEY ET AL.
PETITION FOR WRIT OF CERTIORARI contains 2961 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
October 15, 2019

SCP Tracking: Geragos-888 West 6th Street, Ste 1100-Cover White

